                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1         October 1, 2007 – March 31, 2008
                                                                      AGENCY PROFILE

On December 16, 2007, Chairman                 $251,762,000 to fund a ceiling of 1,690
Robert J. Battista's term expired. Also,       full-time equivalents. NLRB
on December 31, 2007, the recess               Headquarters is at 1099 14th Street, NW,
appointments of Members Peter N.               Washington, DC.
Kirsanow and Dennis P. Walsh expired
with the sine die adjournment of the           In addition to the Headquarters building,
Senate.                                        employees are located in 51 field offices
                                               throughout the country. Three satellite
Effective March 19, 2008, the President        offices for the administrative law judges
designated Peter C. Schaumber as               are located in Atlanta, San Francisco,
Chairman. Wilma B. Liebman is also a           and New York City. Since October 2,
Member.                                        2000, field offices have included 32
                                               Regional Offices, 16 Resident Offices,
The NLRB received an appropriation of          and 3 Subregional Offices.
$256,238,000 for Fiscal Year (FY) 2008,
less a rescission of 1.747 percent,            Additional information about the NLRB
leaving a net spending ceiling of              can be found at www.NLRB.gov.




NLRB OIG Semiannual Report                 2         October 1, 2007 – March 31, 2008
                                   OFFICE OF INSPECTOR GENERAL
NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                       Jane Altenhofen retired as Inspector
The FY 2008 OIG budget is $1,065,900            General on December 28, 2007. David
for operations, of which $180,943 is for        Berry, Counsel to the Inspector
contract services. In addition to the           General/Assistant Inspector General for
Inspector General, the OIG consists of a        Investigations, was designated the
Counsel/Assistant Inspector General for         Acting Inspector General while the
Investigations, Assistant Inspector             Chairman selects a permanent
General for Audits, three auditors, and a       replacement. Kevin Hames entered on
staff assistant.                                duty as an auditor on January 22, 2008.




NLRB OIG Semiannual Report                  3         October 1, 2007 – March 31, 2008
                                                             AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports and one inspection report, conducted the annual review required by the Federal
Information Security Management Act, and released two issue alerts.

Reports Issued                                   security training, password management
•   We issued Audit Report                       and the overaccrual of payroll expenses.
OIG-F-12-08-01, Audit of the NLRB
Fiscal Year 2007 Financial Statements,           Management generally agreed with the
on December 17, 2007. The audit,                 three findings and related
performed by Carmichael, Brasher,                recommendations.
Tuvell & Company, an independent
public accounting firm, found that               •   We issued Audit Report
NLRB's FY 2007 Financial Statements              OIG-AMR-57-08-01, Office of the
were fairly stated. No material                  Chief Information Officer Procurement
weaknesses in controls over financial            Functions, on March 14, 2008. We
reporting were identified. In addition,          conducted this audit to determine
no instances of noncompliance with laws          whether controls over procurement
and regulations required to be reported          actions by the Office of the Chief
by Government Auditing Standards or              Information Officer (OCIO) were
the Office of Management and Budget              sufficient to ensure compliance with the
(OMB) were identified.                           Federal Acquisition Regulation (FAR)
                                                 and were operating as intended.
A Management Letter identified three
areas that could have improved controls.         We initiated this review because the
These included information technology            General Counsel and his managers
                                                 repeatedly raised concerns that




NLRB OIG Semiannual Report                   4          October 1, 2007 – March 31, 2008
                                                                       AUDIT PROGRAM

providing warrant authority to an              The internal controls also failed to meet
individual who is supervised by the            Government Accountability Office
Chief Information Officer (CIO) was            (GAO) standards. Internal controls were
inconsistent with long-standing Federal        not properly documented, the employees
procurement principles regarding               involved did not know what procedures
internal controls of fiscal matters.           to follow, and the controls that were in
                                               place were not always followed.
Internal controls should provide
reasonable assurance that the Agency           The primary recommendation of this
complies with applicable laws and              report was that the Senior Procurement
regulations. The controls that were put        Executive, who is the Director of
in place for OCIO procurement actions          Administration, remove the warrant
that we reviewed did not meet that             authority for the Associate CIO for
standard and were generally ineffective        Program Management. We also
in preventing violations of the FAR and        recommended that the Senior
Antideficiency Act. These violations           Procurement Executive and CIO work
include the failure to properly plan and       together to establish procedures for
compete procurement actions,                   ensuring that OCIO procurement needs
inappropriate use of contract types,           are met.
exercising a nonexistent option,
executing contract actions without             •   We issued Inspection Report
proper authority, and taking affirmative       OIG-INS-52-08-01, Tax Gap, on
action that obscured an unauthorized           March 18, 2008. We conducted this
commitment. We also found violations           inspection to determine whether the
of the Antideficiency Act involving            NLRB's reporting to the Internal
indemnification clauses.                       Revenue Service (IRS) is consistent with




NLRB OIG Semiannual Report                 5         October 1, 2007 – March 31, 2008
                                                                       AUDIT PROGRAM

applicable requirements and supports          Overall, this was a relatively favorable
proper reporting of taxable income.           finding in that it represents 96 percent
                                              accuracy in reporting.
Payments made to backpay recipients
generally matched the instructions            •   The Federal Information Security
received from the Regional Office             Management Act of 2002 requires
regarding the amounts and distribution        inspectors general to conduct annual
of the payments. In general, items were       reviews of information security
properly reported on the appropriate          programs. The OIG review was
forms.                                        primarily accomplished as part of the
                                              audit of the FY 2007 financial
For calendar year 2007, the value of
                                              statements. On October 1, 2007, the
services reported by the Agency on
                                              Chairman submitted reports from the
Form 1099-MISCs to vendors totaled
                                              Inspector General and the Chief
$11,058,238. The Agency did not
                                              Information Officer to OMB.
prepare Form 1099-MISCs for 19
vendors who provided services that
                                              •   We released Issue Alert
exceeded $600. Also, the Agency did
                                              OIG-IA-08-01, Top Management and
not prepare a Form 1099-INT for a
                                              Performance Challenges, on October
vendor who was paid Prompt Payment
                                              15, 2007. The OIG developed a list of
Act interest. The Finance Branch
                                              what it considers to be the most serious
subsequently prepared and sent the
                                              management and performance
appropriate tax forms to the vendors by
                                              challenges facing the NLRB. They are:
the date required by the IRS. For 28
vendors, the amount reported on Form
                                              1. Reduce the Board's pending caseload
1099-MISC did not match the payment
                                                  to meet performance goals;
data in the Agency's financial system.
                                              2. Manage the Agency during periods
The total underreported payments in
                                                  of time that are covered by
calendar year 2007 was $402,349.


NLRB OIG Semiannual Report                6         October 1, 2007 – March 31, 2008
                                                                        AUDIT PROGRAM

    continuing resolutions and                  reports issued between 1994 and 2006
    appropriations that are expected to         that cautioned agencies against making
    be flat or provide only nominal             personnel appointments that created
    increases;                                  situations and appearances which could
3. Manage the Agency's procurement              compromise the credibility and integrity
    process to ensure compliance with           of the merit system. We also
    the FAR;                                    encouraged the Board and General
4. Strengthen control over employees'           Counsel to reconsider the practice of
    use of the Agency information               providing an excepted service
    technology assets to include Internet       appointment to a Presidential appointee
    access;                                     once his or her term expires.
5. Implement e-government initiatives
                                                The Deputy General Counsel
    to effectively communicate with
                                                subsequently issued a memorandum to
    parties and the public; and
                                                the Board and General Counsel
6. Implement audit findings in a timely
                                                disagreeing with the position taken by
    manner.
                                                the OIG with regard to this matter. The
                                                Deputy General Counsel generally stated
•   We released Issue Alert
                                                that providing temporary appointments
OIG-IA-08-02, Attorney Positions for
                                                to individuals awaiting a re-nomination
Former Board Members, on
                                                was in the best interest of the Agency.
February 15, 2008. We received several
Hotline complaints regarding the
                                                Audit Follow-up
appointment of former Board Members
                                                In our September 30, 2007, Semiannual
to excepted service attorney positions
                                                Report, we reported that management
within the Agency. To address those
                                                did not agree with a recommendation to
complaints, we used this Issue Alert to
                                                recompete a contract for the
provide the Board and General Counsel
                                                management and operational support of
with a brief summary of three GAO



NLRB OIG Semiannual Report                  7         October 1, 2007 – March 31, 2008
                                                                       AUDIT PROGRAM

the mailroom as a fixed-price contract         the open recommendations is to revise
using the correct Federal Supply               the Administrative Policies and
Schedule. Management subsequently              Procedures Manual (APPM) to require
recompeted the contract for a variety of       that overtime be authorized in advance,
concerns that were raised by the new           if feasible, and approved in writing. The
Chief of the Contracts and Procurement         other open recommendation is to revise
Section. The contract was awarded on           the APPM to require limiting the time
March 19, 2008, under the correct              that credit hour balances can be carried.
Federal Supply Schedule. We estimate           During this reporting period, the Agency
that this action saved the Agency              and the OIG continued to work together
approximately $178,000 for the base and        to address the open recommendations.
the option year of the new contract.           We both anticipate a resolution during
                                               the next reporting period.
Agreed upon actions were not completed
within 1 year on two audit reports. One        •   Information Technology
of these reports is now closed.                Procurement Actions, OIG-AMR-51-
                                               06-02, was issued on June 29, 2006, and
•   Non-Standard Work Hours                    we reached agreement with management
Compensation, OIG-AMR-47-05-04,                on August 14, 2006. Action was
was issued on August 9, 2005, and we           completed on the final open
reached agreement with management on           recommendations. We closed the audit
that date. Action has been completed on        report on March 31, 2008.
five of seven recommendations. One of




NLRB OIG Semiannual Report                 8         October 1, 2007 – March 31, 2008
                                              INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 89 contacts, initiated 9 cases, and closed 4 cases. The investigations resulted
in two resignations, one retirement, one reprimand, and three referrals to the
Department of Justice.


                        Case Workload                  Contacts Processed

                  Open (10/1/2007)       9        Received                  89

                  Initiated              9        Initiated Investigation    1

                  Closed                 4        Opened Case --             0
                                                  Referred to Agency
                  Open (3/31/2008)      14        Non-Investigative         88
                                                  Disposition


•   Altering Evidence. As previously               which declined prosecution. During this
reported, the OIG initiated this                   reporting period, the subject agreed to
investigation after receiving a report that        retire in lieu of a removal action.
the subject interfered with an unfair              (OIG-I-407)
labor practice (ULP) investigation by
altering e-mail messages that she                  •    Obstruction of Justice. As
received from a party involved in the              previously reported, the OIG initiated an
ULP investigation. The e-mail messages             investigation of a support employee who
were relevant to a pending ULP case and            failed to process litigation material
copies had been requested by an Agency             related to the Agency’s pending cases in
attorney. When interviewed, the subject            the circuit courts. The U.S. Attorney’s
admitted that she engaged in this                  Office declined prosecution. During this
misconduct. Because the subject's                  reporting period, the subject submitted a
conduct violated Federal statutes                  resignation in lieu of disciplinary action
regarding obstruction of justice and false         after being interviewed by the OIG
statements, we referred this matter to the         investigator. (OIG-I-411)
U.S. Attorney’s Office,


NLRB OIG Semiannual Report                    9              October 1, 2007 – March 31, 2008
                                                              INVESTIGATIONS PROGRAM

•   Fraud. As previously reported,               misused his position to obtain a non-
the OIG initiated an investigation of an         political position with the Agency.
employee who was suspected of creating           During the course of our investigation,
fraudulent leave and earnings statements         we found that the subject did not take
for a third party who submitted them             official action with respect to approving
with an application for housing benefits         his selection of the non-political position
for low income individuals. The U.S.             and that he did not accept the position.
Attorney’s Office declined prosecution.          We coordinated our investigative efforts
During this reporting period, we                 with the Public Integrity Section of the
completed our investigation and found            Department of Justice and the Office of
that two employees were involved in              Government Ethics, both of which
creating and using fraudulent leave and          concurred that the subject had not
earnings statements to receive a variety         engaged in any misconduct. (OIG-I-
of state welfare benefits. During the            418)
course of the investigation, one
employee resigned in lieu of disciplinary        •   Contracting Irregularities. The
action. Agency managers are                      OIG initiated an investigation of OCIO
considering disciplinary action for the          contracts with indemnification clauses
remaining employee. Because the                  that violate the Antideficiency Act and
misconduct involved state welfare                other contracting matters that were
benefits, we provided our investigative          identified through an audit. The
results to the state prosecutor’s office,        appropriate U.S. Attorney’s Office
which has initiated an investigation of          declined prosecution of the
this matter. (OIG-I-412)                         Antideficiency Act violations. Our
                                                 administrative investigation of the
•   Misuse of Position. The OIG                  Antideficiency Act violations is
initiated an investigation of a former           ongoing. The other contracting matters
political appointee who allegedly                did not appear to be related to
                                                 misconduct. (OIG-I-419)


NLRB OIG Semiannual Report                  10          October 1, 2007 – March 31, 2008
                                                                INVESTIGATIONS PROGRAM

•   Threats to a Board Agent. The                 •   Travel Card Misuse. OIG
OIG initiated an investigation after a            initiated this case after the Chief,
board agent received a threat from an             Finance Branch, reviewed the
employer. After we referred this matter           transactions for the CitiBank Travel
to the appropriate U.S. Attorney’s                Card and found an improper charge by
Office, the Federal Bureau of                     the subject. When interviewed, the
Investigation took the lead on this               subject admitted that she improperly
matter. (OIG-I-417)                               used the travel card to pay certain
                                                  expenses related to cable television and
•   Contractor Internet Misuse. The               telephone/internet services. Agency
OIG initiated an investigation of contract        managers resolved this matter by issuing
personnel for misusing the Agency's               a reprimand to the subject. (OIG-I-415)
Internet access. During the course of a
routine review of the Agency's Internet           Hotline
firewall logs, we found evidence that the         Employees and members of the public
contractor’s employee was using the               with information on fraud, waste, and
Agency's Internet access and official             abuse are encouraged to contact OIG. A
time to engage in activity related to             log of calls to a nationwide toll free
personal financial investments and                number or the office numbers and a log
outside business activities. When                 of mail, e-mail, and facsimile messages
interviewed, the contract employee                are maintained. All information
acknowledged that he was idle                     received, regardless of the method used,
approximately 50 percent of the time.             is referred to as Hotline contacts.
We issued an interim report to Agency
managers so that they may attempt to              The information received over the
resolve this matter with the contractor.          hotline is the basis for the initial review
(OIG-I-413)




NLRB OIG Semiannual Report                   11          October 1, 2007 – March 31, 2008
                                                            INVESTIGATIONS PROGRAM

for potential investigations. The              As appropriate, OIG refers these callers
information is analyzed to determine if        to the Regional Office; local, state, or
further inquiry is warranted. Most             Federal agency; or private resource to
Hotline contacts are calls from members        provide assistance. During this
of the public seeking help on an               reporting period, OIG received 89
employment related problem or issues           Hotline contacts, of which 43 were
outside OIG and/or Agency jurisdiction.        telephone calls and 46 were in writing.




NLRB OIG Semiannual Report                12          October 1, 2007 – March 31, 2008
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed four pieces of legislation.

Legislation                                       establishes within the executive branch
We reviewed the following legislation             the Council of the Inspectors General on
and provided input when appropriate.              Integrity and Efficiency and an Integrity
                                                  Committee for the Council to review and
S. 2324, Inspector General Reform                 refer for investigation allegations that
Act of 2008. This bill amends the IG              are made against Inspectors General and
Act to require each Inspector General to          certain staff of the Inspector General
be appointed without regard to political          Offices. The bill provides for the
affiliation and solely on the basis of            transmission of Inspector General
integrity and demonstrated ability in             budget requests.
accounting, auditing, financial analysis,
law, management analysis, public                  S. 2583, Improper Payments
administration, or investigations. It             Elimination and Recovery Act of
requires the head of a designated federal         2008. This bill amends the Improper
entity to communicate to Congress in              Payments Information Act of 2002 (31
advance the reasons for removing or               U.S.C. 3321 note) in order to prevent the
transferring an Inspector General. It sets        loss of billions in taxpayer dollars. The
forth the annual rate of basic pay for            bill requires the Inspector General of
Inspectors General and prohibits an               each agency to determine whether the
Inspector General from receiving cash             agency is in compliance with the
awards or bonuses. The bill would                 Improper Payments Information Act and
require Inspectors General to obtain              submit a report to the head of the agency
legal advice from a counsel either                on that determination. The head of each
reporting directly to the Inspector               agency shall include the report of the
General or another Inspector General. It


NLRB OIG Semiannual Report                   13          October 1, 2007 – March 31, 2008
                                                 LEGISLATION, REGULATIONS, AND POLICY

agency's Inspector General in the                 General (1) post audits and other reports
Performance and Accountability Report.            on his or her Web site within 1 day of
                                                  the release of the report; (2) provide a
HR. 1873, Small Business Fairness in
                                                  service for individuals to request
Contracting Act. This bill would
                                                  automatic receipt of audits and reports;
require that the Inspector General of
                                                  and (3) provide a link on the OIG Web
each agency, on an annual basis, submit
                                                  site allowing anonymous reporting of
to Congress a report on the number and
                                                  waste, fraud, and abuse.
dollar value of contract awards that were
coded as awards to small business
                                                  Regulations
concerns, but in fact were made to
                                                  The Counsel to the Inspector General is
businesses that did not qualify as small
                                                  an advisory member of the Agency's
business concerns.
                                                  Rules Revision Committee that develops
                                                  changes to the Agency's procedural
FY 2008 Consolidated Appropriations
                                                  regulations.
Act. This law requires that Inspectors




NLRB OIG Semiannual Report                  14           October 1, 2007 – March 31, 2008
                                                        LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Counsel participated in the Council
The Inspector General is a member of              of Counsels to Inspectors General
the Executive Council on Integrity and            (CCIG). The Counsel also participated
Efficiency (ECIE), which consists                 in the Interagency Investigative Data
primarily of the inspectors general at the        Mining Working Group.
designated Federal entities in the IG Act.
The Inspector General also participates           Government Accountability Office
in activities sponsored by the President's        The IG Act states that each inspector
Council on Integrity and Efficiency,              general shall give particular regard to the
which consists primarily of the                   activities of the Comptroller General of
Presidentially-appointed inspectors               the United States, as head of GAO, with
general.                                          a view toward avoiding duplication and
                                                  ensuring effective coordination and
The Assistant Inspector General for               cooperation.
Audits, or designated auditors,
participated in the Federal Audit                 At the August 28, 2007, ECIE meeting,
Executives Council, Financial Statement           GAO announced that they were planning
Audit Network, the Interagency                    to evaluate the governance structures at
Investigative Data Mining Working                 designated federal entities and the
Group, and the Chief Financial Officers           inspectors general's roles and reporting
Council A-136 Subcommittee.




NLRB OIG Semiannual Report                   15         October 1, 2007 – March 31, 2008
                                                                    LIAISON ACTIVITIES

relationships within the governance             sent to the Chairman and General
structures. This evaluation was                 Counsel. During this reporting period
requested by Senator Charles Grassley.          the OIG received a GAO survey
Official notifications were subsequently        regarding OIG independence.




NLRB OIG Semiannual Report                 16         October 1, 2007 – March 31, 2008
                           INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has been completed on all significant recommendations
                        that were described in the previous semiannual reports.

(4)             Three cases were referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 18.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. One audit report issued during this period identified funds that could be
                put to better use. See Table 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      17           October 1, 2007 – March 31, 2008
                          AUDIT REPORTS BY SUBJECT MATTER

                                                                          Funds To
                                  Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number            Costs          Costs        Costs      Better Use

ADMINISTRATION

NLRB Fiscal Year 2007
Financial Statements
OIG-F-12-08-01                        0             0            0            0

Office of the Chief Information
Officer Procurement Functions
OIG-AMR-57-08-01                      0             0            0         $13,000




NLRB OIG Semiannual Report                18        October 1, 2007 – March 31, 2008
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    19   October 1, 2007 – March 31, 2008
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      1          $13,000

       Subtotals (A+B)                   1          $13,000


C. For which a management
   decision was made during the
   reporting period                      1          $13,000

(i)      Dollar value of
         recommendations that were
         agreed to by management         1          $13,000

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   20    October 1, 2007 – March 31, 2008
Every employee is the
guardian of integrity                                        .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   21   October 1, 2007 – March 31, 2008
